Supreme Court, U.S.
FILED

OCT 0 1 2020
OFFICE OF THE CLERK

NO. 20-

413

in The

Supreme Court of tfje ®ntteb States?
AMY R. GURVEY, US Patentee,
Petitioner Pro Se,
v.
COWAN, LIEBOWITZ & LATMAN, PC,
CLEAR CHANNEL COMMUNICATIONS, INC.
LIVE NATION, INC., INSTANT LIVE CONCERTS, LLC.
NEXTTICKETING INCORPORATED, WILLIAM BORCHARD,
MIDGE HYMAN, BAILA CELEDONIA,
CHRISTOPHER JENSEN, DALE HEAD, STEVE SIMON,
NICOLE ANN GORDON, SUSAN SCHICK,
MICHAEL GORDON, DOES I-X INCLUSIVE,

Respondents.
On Writ of Certiorari to the United States
Court of Appeals for the Federal Circuit
PETITION FOR A WRIT OF CERTIORARI
Amy R. Gurvey,
US Patentee Pro Se
Petitioner Pro Se
315 Highland Avenue
Upper Montclair, NJ 07043
(917) 733-9981

Furman Kornfeld & Brennan
61 Broadway 26th FL
New York, NY 10006
(212) 867-4100

Hinshaw & Culbertson, LLP
800 Third Avenue 13th FL
New York, NY 10022
(212) 471-6200

(r.

\ I

' !

U
> -

;

' /,

1

i

\i ; i;' ;

i

j

.. s

V-I'V" t

’

L ■ « •

-...7

;

Ml
\ ;-.J .

V; ;~V

..J

*i QUESTIONS PRESENTED (2)

1. Question #1: In this US patent litigation,
whether Petitioner, a Pro Se patentee who is
sole named inventor of valuable US ticketing
method, apparatus and design patents1, is
entitled to a Writ of Certiorari under the All
Writs Act, 28 USC § 1651(a), against the US
Court of Appeals for the Federal Circuit or
against the US District Court for the SDNY
directly to order the SDNY to reinstate and
adjudicate Petitioner’s strict liability patent
infringement and nonjoinder amended
complaint also seeking injunctive relief
pursuant to 35 USC §§271, 256, FRCP Rule
15, duly filed, date-stamped and docketed by
the SDNY Clerk that was unlawfully deleted
ex parte from the district court docket without
notice to Plaintiff in violation of the Due
Process Clause of the Fifth Amendment and
never thereafter reinstated or adjudicated?
Based on Justice William Brennan’s 1988
“pingpong’ decision and order in Christianson
1 Gurvey US Ticketing Patent Nos.
7603321; D647910S issued on October 13,
2009 and November 1, 2011.

1

v. Colt Industries Operating Cory., 486 US 800
(1988) (Brennan, J.), the answer to the above
question would definitely be “yes” and the
Supreme Court must grant the writ to
maintain consistency with established patent
decisions.
The Federal Circuit and the Second Circuit
have been shuffling Petitioner’s patent appeal
to the 2017 summary judgment orders of the
SDNY denying Petitioner’s cross-motion
seeking strict liability infringement and non­
joinder patent damages back and forth for
three years each claiming the other has
jurisdiction. Justice Brennan stated that he
has no tolerance for this type of dispute that
significantly prejudices the appellant, that the
two arguing appellate courts should attempt
to resolve the dispute by abiding by the
doctrine of law of the case, but that in a patent
case, a coordinate appeals court that lacks
arising under jurisdiction, cannot as a matter
of law, establish law of the case by usurping
its jurisdictional power and authority.
In this case, two appeals courts have played
“ping pong” with Petitioner’s appeal. Because
a patentee is absolutely entitled to file an
amended complaint to recover strict liability
infringement damages against the named
2

♦

defendants when an anticipated US patent
issues during the litigation, and infringement
claims are always “arising under” claims, the
SDNY blatantly usurped it power by deleting
the docketed amended complaint and not
granting any amended complaint for service
post patent issuance in 2010, 2012 and 2014.
Reedy v. Scott, 90 US 352 (1874). In addition,
based on the Federal Circuit’s June 23, 2020
order, the Second Circuit’s liberal pleading
practices mandated both that the deleted
amended complaint be granted for service and
that even a further amended complaint could
also granted post judgment. Grant Williams v.
Citicorp, 659 F. 3d 208 (2d Cir 2011).
However, in accordance with Christianson,
supra, in the instant case, it is the Federal
Circuit and not the Second Circuit that
established “law of the case” by finding on
June 23, 2020 that the Second Circuit abused
discretion in adjudicating the previous 2017
patent appeal to the summary judgment
orders of the SDNY and not transferring that
appeal to the Federal Circuit pursuant to 28
USC §1631 in response to Petitioner’s motion.
In essence the Federal Circuit agreed that the
Second Circuit had no power to hear the
previous arising under appeal.
3

Per Justice Brennan, because law of the case
cannot be established by a coordinate appeals
court that lacks jurisdiction, only the Federal
Circuit can issue a subsequent writ under the
All Writs Act against the same district court
in an arising under patent case for the
duration of the lawsuit. [28 USC §§1295;
1651(a); In re Princo. 478 F. 3d 1345 (Fed Cir.
2007)].

2. Question #2:
Whether Petitioner is
entitled to a separate writ against the Federal
Circuit or against the Second Circuit directly
to vacate Second Circuit’s 2018 appellate
order entered in abuse of power and without
“arising under” jurisdiction?
Based on Christianson, because jurisdiction is
never waived and the Second Circuit usurped
its appellate powers in adjudicating a previous
appeal it had no power to hear, a writ must
issue from this Court or the Federal Circuit to
vacate the Second Circuit’s previous 2018
order to the 2017 summary judgment orders of
the district court.

4

*ii PARTIES TO THE PROCEEDING

Pursuant to Rule 14.1(b), the following list
identifies all of the parties appearing in the
SDNY and before the United States Court of
Appeals for the Federal Circuit.
The Petitioner Pro Se here and in the Petition
below is Amy R. Gurvey, a US patentee and
sole inventor of ticketing management
systems, apparatuses and designs disclosed in
issued US patents. Gurvey US Patent Nos.
7603321; D647910S.
The Respondents in the SDNY include: (i) Live
Nation, Inc., the world’s largest promoter of
concerts a willful infringer in 2005; (ii) its
subsidiary defendant Instant Live Concerts,
LLC; (iii) Mike Gordon of Phish; and (iv)
Cowan Liebowitz & Latman, PC the parties’
common NYC patent and intellectual property
attorneys.
The respondents who appeared in Petitioner’s
mandamus petition to the Federal Circuit
were the Cowan defendants. Respondents
Live Nation, Instant Live Concerts, and
Gordon, being duly served, did not appear and
defaulted.
5

*iii CORPORATE DISCLOSURE STATEMENT

Pursuant to Rule 29.6, Petitioner, a Pro Se
litigant and US patentee, states as follows:
Petitioner is the sole inventor and owner of US
Patent Nos. 7603321; D647910S and other
pending applications in
a ticketing
management
portfolio
comprised
of
proprietary secondary ticketing and ticketing
management method, apparatuses and
designs. The patents are in Petitioner’s sole
name and have not been assigned. Petitioner
is not a non-governmental corporation.
Petitioner has no parent corporation or shares
held by a publicly traded company.

6

*iv TABLE OF CONTENTS
QUESTIONS PRESENTED (2)

1-4

PARTIES TO THE PROCEEDING

5

CORPORATE DISCLOSURE STATEMENT

6

TABLE OF CONTENTS

7

TABLE OF AUTHORITIES

8

OPINIONS BELOW.

9

STATEMENT OF JURISDICTION
US CONSTITUTION AND STATUTORY PROVISIONS

11
12-15

STATEMENT OF THE CASE

16

LITIGATION FACTS

20

CHRISTIANSON v. COLTIND. OPRTG COUP.. 486 US 800 (1988)..... 26
REASONS FOR GRANTING THE WRIT

29

CONCLUSION

35

CERTIFICATE OF COMPLIANCE

39

CERTIFICATE OF SERVICE

40

7

*v TABLE OF AUTHORITIES
CASES
Christianson v. Colt Ind. Opertg. Corp., 486 US 800 (1988) Passim
1,3,
4,9,18,24,25,26,27,28,31
In re Princo, 487 F. 3d 1345 (2d Cir. 2007).................... .............................. 4,24,36
In re Newman, 782 F.2d 917 (Fed Cir. 1986)................
17
In re Mark Industries, 751 F. 2d 1219 (Fed Cir. 1984)
17
In Re Snap-On Tools, 720 F. 2d 654 (Fed Cir. 1983)...
17
Mississippi Chem. v. Swift Agric. Chem., 717 F. 2d 1372 (Fed Cir. 1983)
17
Reedy v. Scott, 90 US 352 (1874)............................................................. 3,17,21,33
Carter u. ALKHoldings, Inc., 605 F. 3d 1319 (Fed Cir. 2010).......... ........ 24,28
SCA Hygiene Aktiebolag v. 1st Qual. Baby Prods.................................
30
Erickson v. Pardus, 551 US 89 (2007)...................................................
30
Mindy’s Cosmetics v. Dakar, 611 F. 3d 590 (9th Cir. 2010)................
33
Grant Williams v. Citicorp., 659 F. 3d 208 (2d Cir. 2011).................
3,22
US v. Ticketmaster and Live Nation, 2010 WL 975408 (DDC 2010)
32,34
PATENTS
Gurvey US Ticketing Patent Nos. 7603321;D647910S (October 13, 2009,
November 1, 2011)....................................................
1,5,6
US CONSTITUTION FIFTH AMENDMENT
STATUTES & RULES
28 USC §1254(1).....................
28 USC §1338; 1338(a).........
28 USC §1295.........................
28 USC §1651(a).....................
28 USC §1631.........................
35 USC §§271, 284, 285, 286
35 USC §256............................
37 CFR 1.324.........................
37 CFR 1.36.............................
FRCP Rule 60(b)(l)-(6).........

1,12,20,25,29,37

11
.......................12,16,17,24,36
....................... 4,12,16,18,36
. ............................. 4,13,23,29
................................... 9,20,35
14,15,16,19,21,23,24,30,35
28
16, 21,28
21
34

8

OPINIONS BELOW

The order denying Reconsideration by
Rehearing En Banc entered by the United
States Court of Appeals for the Federal Circuit
on September 2, 2020 is reprinted in the
Special Appendix to the Petition (“SPA” at la
- 2a)
The previous opinion of the Federal Circuit
entered on June 23, 2020 finding that the
Second Circuit abused discretion in not
transferring a 2017 “arising under” patent
appeal to the Federal Circuit in 2018 in
violation of 28 USC §1631 is printed at SPA
3a- 7a. In this order, the Federal Circuit
ordered that Petitioner should submit the
deleted motion seeking leave to amend to
recover infringement damages and injunctive
relief to the Federal Circuit. After issuing this
instruction, in the same order, Federal Circuit
somewhat inconsistently held it would still
retransfer Petitioner’s petition back to the
Second Circuit based on law of the case.
Argument: The Federal Circuit abused
discretion by retransferring the petition
back to the Second Circuit. The Supreme
Court must maintain consistency with
Christianson v. Colt Industries Operating
9

Cory., 486 US 800 (1988) (Brennan, J) and
find that the Federal Circuit established law
of the case and the Second Circuit did not.
This is because the Second Circuit having
usurped its power in adjudicating a previous
“arising under” appeal in the total absence of
appellate power in 2018, had no power to
adjudicate and therefore cannot issue a
subsequent writ of mandamus against the
district court in the same case.
In addition, because the Second Circuit’s
previous appellate orders in 2018 and 2019
are void or voidable for lack of jurisdiction,
they cannot, as a matter of law, establish law
of the case on any arising under claims against
the defendants in the lawsuit. Therefore, the
SDNY’s 2017 order closing the case after
improperly denying Petitioner’s cross-motion
against only one of the named defendants
based on its concession that the court granted
no amended complaint post patent issuance,
is properly vacated including based on the
SDNY’s unlawful unilateral deletion of
Plaintiff s amended complaint from the docket
seeking recover strict liability infringement
damages and injunctive relief against the Live
Nation defendants who are willful infringers
since 2004-5.
10

STATEMENT OF JURISDICTION

The Federal Circuit issued its decision finding
that Second Circuit abused discretion in
hearing a prior patent appeal on June 23, 2020
and retransferred the case back to the Second
Circuit. By Order dated September 2, 2020
the court denied reconsideration by rehearing
en banc.
Jurisdiction of this Court is invoked under 28
USC §1254(1).

11

FIFTH AMENDMENT
OF THE UNITED STATES CONSTITUTION

“No person shall be... deprived of life, liberty,
or property, without due process of law...”
STATUTORY PROVISIONS INVOLVED

A. 28 USC§ 1338 provides as follows:
“(a)The district courts shall have original
jurisdiction of any civil action arising under
any Act of Congress relating to patents.
(b) The district courts shall have original
jurisdiction of any civil action asserting a
claim of unfair competition when joined with
a substantial and related claim under the
copyright, patent, plant variety protection or
trademark laws.”
B. 28 USC §1295 provides as follows:
“(a) The United States Court of Appeals for
the federal Circuit shall have exclusive
jurisdiction (l)Of an appeal from a final decision of a
district court of the United States, in
any civil action arising under, or in any
12

civil action in which a party has
asserted a compulsory counterclaim
arising under any Act of Congress
relating to patents or plant variety.”
C. 28 USC 1651(a) provides as follows:
“(a) The Supreme Court and all courts
established by Act of Congress may
issue all writs necessary or appropriate
in aid of their respective jurisdictions
and agreeable to the usages and
principles of law”.
D. 28 USC § 1631 provides as follows:
“Whenever a civil action is filed in a
court as defined in section 610 of this
title or an appeal... and the court finds
that there is a want of jurisdiction, the
court shall, if it is in the interest of
justice, transfer such action or appeal to
any other court...in which the action or
appeal could have been brought at the
time it was filed or noticed. And the
action or appeal shall proceed as if it
had been filed in or noticed for the court
to which it is transferred on the date
upon which it was actually filed in or
notices for the court from which it is
13

transferred.
E. 35 USC §271 provides as follows:
(a)“...Whoever without authority makes,
uses, offers to sell, or sells any patented
invention, within the United States or
imports into the United States any
patented invention during the term of
the patent therefor, infringes the
patent.
(b)Whoever actively induces infringement
of a patent shall be liable as an
infringer.
(c) Whoever offers to sell of sells within the
United States or imports into the
United States a component of a
patented machine, manufacture,
combination or composition, or a
material part of the invention, knowing
the same to be especially made or
especially adapted for use in an
infringement of such patent, and not a
staple article or commodity of commerce
suitable for substantial non-infringing
use, shall be liable as a contributory
infringer.”

14

F. 35 USC §284 provides as follows:
“ Upon finding for the claimant, the
court shall award the claimant damages
adequate to compensate for the
infringement, but in no event less than
a reasonable royalty for the use made of
the invention by the infringer, together
with interest and costs as fixed by the
court.
When the damages are not found by a
jury, the court shall assess them. In
either event, the court may increase the
damages up to three times the amount
found or assessed...
The court may receive expert testimony
as an aid to the determination of
damages or of what royalty would be
reasonable under the circumstances”
G. 35 USC§ 285 provides as follows:
“The court in exceptional circumstances
may award reasonable attorney fees to
the prevailing party.”
H. 35 USC§ 286 provides as follows:
“...No recovery shall be had for any
infringement committed more than six
years prior to the filing of the complaint
or counterclaim for infringement in the
action.”
15

STATEMENT OF THE CASE

In order to demonstrate that this case is one
“arising under” federal patent law, Petitioner
must set up some right, title or interest under
the patent laws, or at least make it appear
that some right or privilege will be defeated by
one construction, or sustained by the
opposition construction, of those laws. Section
28 USC § 1338(a) jurisdiction extends only to
those cases in which a well-pleaded complaint
established either that federal patent law
creates the cause of action or that the
plaintiffs’ right to relief necessarily depends
on resolution of a substantial question of
federal patent law, in that patent law is a
necessary element of one of the well-pleaded
claims. An “arising under” case is always
found when a plaintiff-inventor seeks patent
strict liability infringement damages under 35
USC §271, 284, 285, 286, injunctive relief, or
non- joinder damages under 35 USC 256, 37
CFR 1.324, in a cross-motion for summary
judgment. [28 USC §§1338; 1295;35USC§ 286]
In addition, only the Federal Circuit may issue
extraordinary writs under the All Writs Act,
28 USC 1651(a) in arising under patent cases.
Th Court is empowered to use its exclusive
power where necessary to aid its appellate
arising under jurisdiction or where there is a
16

clear abuse of discretion by a district court, a
coordinate appeals court, or usurpation of
judicial power. See, In re Newman. 782 F. 2d
917 (Fed. Cir 1986) (district court exceeded its
discretion when it authorized destruction of
an invention during testing); In re Mark
Industries. 751 F. 2d 1219 (Fed. Cir 1984)
(clear abuse of discretion when district court
ordered removal of preemption of validity as
sanction for attorney’s misconduct); In re
Snap-On Tools Corn.. 720 F. 2d 654 (Fed. Cir.
1983) (mandamus required to preserve
jurisdiction of the court where plaintiff
brought an action in state court based on
patent infringement and state law causes of
action, defendant removed to federal court and
district court remanded to state court);
Mississippi Chem Corn, v Swift Agricultural
Chem Corn.. Ill F. 2d 1372 (Fed. Cir. 1983)
(clear abuse of discretion when district court
refused to give collateral estoppel effect to a
holding of invalidity).
The fact that Section 1338(a) expressly speaks
of “a well-pleaded complaint” is consistent
with the US Supreme Court’s established
1874 decision and order in Reedy v. Scott. 90
US 352 (1874). The Reedy court held that if
an anticipated patent issues to the plaintiff
during the lawsuit, an amended complaint
17

must be granted by the district court to
recover infringement damages against the
named defendants particularly if the
defendants were infringing the claims prior to
patent issuance. When Congress granted
Federal Circuit jurisdiction under 28 USC
§§1295, its focus was a well-pleaded
complaint, not a well-tried case. The
legislative history of the Federal Circuit’s
jurisdictional provision confirms that focus.
P. 2176.
The additional black letter rule that a court
may not in any case even in the interests of
justice extend its jurisdiction where none
exists is as relevant to this case as it was in
Christianson v. Colt Industries Operating
Cory., 486 US 800 (1986)(Brennan, J.)
To quote Justice Brennan, “Interpreting the
rule has always worked injustice in close cases
especially in the situation here, where the
litigants are bandied back and forth between
two courts, each of which insists that the other
has jurisdiction... However, the courts of
appeal should achieve a quick settlement of
questions of transfer by adhering strictly to
principals of law of the case; but cannot create
arising under jurisdiction in a court that lacks
that jurisdiction.
18

Here, the Federal Circuit found in its first
order entered June 23, 2020 that the Second
Circuit abused discretion in not transferring
the prior 2017 appeal to the Federal Circuit
because the case was an arising under case at
that time. Petitioner’s cross-motion seeking
summary judgment on strict liability
infringement, an injunction and non-joinder
patent damages falls directly under a patent
statute, 35 USC §286. Therefore, the Federal
Circuit could not retransfer Petitioner’s
subsequent mandamus petition seeking a writ
under the All Writs Act back to the Second
Circuit and attempt to create arising under
jurisdiction in favor of the Second Circuit that
never existed.
The appellate jurisdiction of the Federal
Circuit emanates from an Act of Congress and
cannot be delegated to another coordinate
appeals court because the legislative intent is
national uniformity of patent decisions. Here,
the Federal Circuit was not allowed to dodge
its delegated appellate duty created by a
patent statute and retransfer the case back to
the Second Circuit simply because it found the
subject matter of the appeal to be repugnant
or because the district court was engaging in
usurpation of power for several years by
deleting docket entries against Petitioner’s
19

Fifth Amendment rights.
For this reason, Petitioner is entitled to
separate writ from either the Federal Circuit
or the Supreme Court of the United States to
vacate the Second Circuit’s previous appeal
order entered in 2018. By legal impossibility,
if the Second Circuit had no “arising under”
appellate jurisdiction in 2018 per the Federal
Circuit’s own order, the Second Circuit still
would have no power to enter a writ of
mandamus against the SDNY subsequently in
the same case. It is a legal impossibility that
the Second Circuit’s 2018 voidable orders
entered without arising under jurisdiction
could have established law of the case on any
arising under patent issues.

LITIGATION FACTS

The Federal Circuit held in its first order
entered June 23, 2020 that the Second Circuit
“abused discretion” in not transferring a
previous 2017 “arising under” patent appeal to
the Federal Circuit in response to Petitioner’s
2018 motion under 28 USC §1631. Thereafter,
it was confirmed that Petitioner’s seminal
well-pleaded amended complaint seeking
injunctive relief, infringement and nonjoinder
20

damages against the named defendants under
35 USC §§271, 284, 285, 286, 256, 37 CFR
1.36, 1.324 had been unlawfully deleted ex
parte from the SDNY docket without notice to
Petitioner or her attorney in violation of
constitutional due process and the Fifth
Amendment. The deletions appear to have
been
intentional because
there
was
renumbering of the docket entries by the
SDNY clerks after the deletions were made.
There is no question therefore that the SDNY
abused discretion and usurped its power
several times in the case, and not just once. In
2012, Petitioner’s infringement, non-joinder
amended complaint and associated motions
were removed ex parte from the docket and
the docket was renumbered. In 2017, the
district court admitted in its first summary
judgment order that it was denying
Petitioner’s cross-motion for summary
judgment because the court never granted
service of an amended complaint post patent
issuance to Plaintiff in defiance of US
Supreme Court mandates. Reedy v. Scott. 90
US 352 (1874).
In this case, however the district court did not
merely not grant the (owed) amended
complaint as soon as the anticipated patent
21

issued in 2009 and 2011, but unilaterally and
unlawfully deleted the amended complaint
from the docket ex parte after it was filed,
date-stamped and docketed by the SDNY clerk
on April 22, 2010. The district court thereafter
granted no amended complaint to Petitioner
arising under the patent laws whatsoever
after two additional attempts in 2012 and
2014 (all printed in the Appendix submitted to
the Federal Circuit) in violation of the liberal
pleading rules of the Second Circuit and no
patent discovery. Grant Williams v. Citicorp.
659 F. 3d 208 (2d Cir 2011). There was also
no notice to Petitioner or her attorney that her
docketed well-pleaded complaints
and
motions were unilaterally deleted in violation
of due process. Petitioner was thereby
unlawfully denied all constitutional access to
the district court to protect her patents in
violation of the Fifth Amendment of the
United States Constitution,
Petitioner
suffered manifest injustice — loss of 13 years of
patent infringement and nonjoinder damages
and the right to injunctive relief against the
named defendants who were willful infringers
and 13 years of patent protection in the
relevant US patents, and years of fruitless and
wasted litigation before the district court.
In 2020, Petitioner properly sought a writ of
22

mandamus from the SDNY to reinstate and
adjudicate the deleted well-pleaded amended
complaints against all defendants and to
vacate the 2017 summary judgment orders
denying Plaintiffs cross-motion. The petition
was denied. Petitioner had the absolute right
to file this motion because the term of patent
protection remained in full force and her
rights to get injunctive relief and recover
infringement and nonjoinder damages against
the named defendants continue for the full
term of patent protection. [35 USC§ 271]
Petitioner then appealed to the Federal
Circuit and sought an extraordinary writ
under 28 USC §1651(a) against the SDNY to
reinstate and adjudicate the deleted motions
and vacate the 2017 orders on summary
judgment.
Because the Second Circuit abused discretion
in adjudicating the previous 2017 “arising
under” appeal and could not, as a matter of
law, establish law of the case by this
adjudication, it had no power or jurisdiction to
adjudicate the subsequent writ sought by
Petitioner. Ergo, the Federal Circuit abused
discretion when it found on June 23, 2020 that
the Second Circuit established law of the case
when it entered a void order it was powerless
and without appellate jurisdiction to issue.
23

Therefore, based on Christianson, it was the
Federal Circuit that established law of the
case in this lawsuit and the Federal Circuit
could not issue an order in breach of the law of
the case its own court established and
retransfer the case back to the Second Circuit
and attempt to create arising under
jurisdiction in favor of the Second Circuit that
does not exist.
28 USC §§1295; 1651(a) are clear that only the
Federal Circuit can issue a writ of mandamus
against the district court in an “arising under”
patent case in aid of its own jurisdiction or in
instances of clear usurpation of power.
The Supreme Court must follow established
precedents and not permit the Federal Circuit
to dodge its duty to Petitioner simply because
the patent appeals court finds the subject
matter to be repugnant. 28 USC§§ 1338 1295;
35 USC §286; In re Princo. 478 F. 3d 1345 (Fed
Cir 2007); Christianson v. Colt Industries
Oneratins Coro., 486 US 800 (1988); see also,
Carter v. ALK Holdings. 605 F. 3d 1319 (Fed.
Cir. 2010).
This instant case qualifies for de novo review
by the Supreme Court on an important issue
24

of exclusive arising under patent appellate
jurisdiction.
The instant case is the direct inverse of
Christianson v. Colt Industries Operating
Cory., 486 US 800 (1986) (Brennan, J.) the
case cited by the Federal Circuit in its June
23, 2020 decision and order.
Summary; The Supreme Court must issue a
writ against the Federal Circuit consistent
with its order in Christianson, vacate the 2018
order of the Second Circuit that could not
establish law of the case by legal impossibility,
and grant Petitioner a permanent stay against
the Second Circuit from hearing any further
appeals in this lawsuit. Otherwise per Justice
Brennan’s mandates, the case will bandy back
and forth between coordinate appeals courts
and Petitioner will be endlessly deprived of all
constitutional access to protect her patents
during the term of protection before the SDNY
in violation of the Fifth Amendment of the US
Constitution.

25

CHRISTIANSON v. COLT INDUSTRIES
OPERATING CORP.. 486 US 800 (1988)
(Brennan, J.)
Christianson v. Colt Industries Operating
Coro., 486 US 800 (1988)(Brennan, J.) was
cited by the Federal Circuit in its June 23,
2020 order but ironically, the Supreme Court
proscribed the exact conduct undertaken by
the Federal Circuit in the instant case.
Justice Brennan found that the Federal
Circuit properly denied appellate jurisdiction
in an antitrust and unfair competition lawsuit
because a well-pleaded complaint neither
established that federal patent law created
the cause of action or that the plaintiff s right
to relief necessarily depended on resolution of
federal patent law such that patent law was a
necessary an element of one of the wellpleaded claims. Justice Brennan emphasized
that he was displeased that two coordinate
appeals courts - the Seventh Circuit and the
Federal Circuit — were shuffling an appeal
back and forth and depriving the plaintiff of a
remedy under the antitrust laws and state
unfair competition law, but emphasized that
no well- pleaded complaint in the case made
patent law a necessary element of the
plaintiffs claims.
26

Based thereon, Justice Brennan found that
the Seventh Circuit was not permitted to
dodge jurisdiction after the Federal Circuit
made the proper analysis denying arising
under appellate jurisdiction, and retransfer
the case back to the Federal Circuit a second
time because patent law was not an essential
element of the plaintiffs’ claims. The High
Court also held that because the Federal
Circuit properly determined it lacked
appellate jurisdiction, the Federal Circuit
could not then decide the appeal when it was
transferred back from the Seventh Circuit in
the interests of justice. Justice Brennan held
that the Federal Circuit’s subsequent
adjudication of the appeal was itself abuse of
discretion because the Federal Circuit
established law of the case in the previous
order, and then defied its own order.
Christianson is the inverse of the instant case.
Not one of the SDNY, the Second Circuit or the
Federal Circuit ever challenged Petitioner’s
argument that every well-pleaded complaint
filed in the lawsuit stipulated that pursuant to
established US Supreme Court mandates,
that the operative complaint would be deemed
amended to recover infringement damages
and get injunctive relief once the first
27

anticipated patents issued during the case. In
addition, there was no dispute that
Petitioner’s nonjoinder claims against the
parties’
common
defendant
patent
practitioners also arose under the patent laws
and that Petitioner was improperly denied an
amended complaint to recover damages on
these claims separate from strict liability
infringement. 35 USC § 256, 37 CFR 1.324;
Carter v. ALK Holdings. 605 F. 3d 1319 (Fed.
Cir 2010).
In 2020, the Federal Circuit having been
petitioned to issue a writ of mandamus
against the district court based on unlawful
and unilateral ex parte deletions of
Petitioner’s docketed motions and amended
complaints, and finding that the Second
Circuit abused discretion in hearing the 2018
“arising under” appeal to the summary
judgment orders of SDNY entered in 2017,
abused discretion in transferring the case
back again. Under Christianson, the first
determination by the Federal Circuit finding
that the Second Circuit lacked arising under
jurisdiction in 2018 must govern, and the
Federal Circuit must be ordered by this Court
to maintain the petition, grant the writ
against the district court and vacate its
transfer order. In addition, the Supreme
28

ft

ft

Court or the Federal Circuit must vacate the
order entered by the Second Circuit in 2018
summarily denying Petitioner’s cross-motion
seeking strict liability infringement and non­
joinder damages through clear usurpation of
power.
REASONS FOR GRANTING THE WRIT

1. There is necessity to maintain consistency
with established US Supreme Court “arising
under” precedents and to resolve a long­
standing dispute among two appeals court
interfering with Petitioner’s right to protect
her patents in violation of the Fifth
Amendment
of
the
United
States
Constitution.
2. Petitioner has no other remedy at law other
than an extraordinary writ under the All
Writs Act, 28 UC 1651(a) to seek
reinstatement and adjudication of unilaterally
deleted motions and an amended complaint by
the SDNY to recover infringement damages
and get injunctive relief against the named
defendants.
3. Petitioner was deprived of constitutional
access to the SDNY for 10 years in violation
29

the Fifth Amendment to protect her US
patents, get injunctive relief and recover long
overdue strict liability willful infringement
and aiding and abetting infringement and
nonjoinder damages against the Live Nation
and Cowan defendants which are arising
under claims. 35 USC §271
4. The filing of a new infringement lawsuit in
2020 is not an adequate remedy. Pursuant to
35 USC § 286, a new lawsuit will only permit
recovery of six years of relate back patent
damages retroactive to 2014 and no recovery
willful infringement damages or royalties
against the
Live
Nation
defendants
retroactive to 2010 when the [deleted]
amended complaint was filed. SCA Hygiene
Products Aktiebolas v. First Quality Baby
Products, 137 S. Ct. 954 (2017). In addition,
Petitioner’s non-joinder and fraudulent
breach of fiduciary duty claims against the
Cowan defendants have expired based on
lapse of the six-year statute of limitations.
5. Petitioner is a Pro Se litigant and sole
named small entity inventor of the relevant
patented ticketing technology entitled to
reasonable concessions from the court.
Erickson v. Pardus, 551 US 89 (2007). The
defendants are mega industry competitors in
30

her field of invention who used the delay in
patent issuance caused by the parties’
common defendant practitioners to infringe
Petitioner’s patents, violate the antitrust
laws and keep Petitioner’s patent out of the
ticketing business.
ft

ft

»

i

ft

6. Petitioner has suffered manifest injustice
as required by Christianson. The SDNY and
two circuit courts denied her constitutional
access to protect her patents losing Petitioner
her right to injunctive relief when the
patents first issued in the United States, 14
years of infringement damages, nonjoinder
damages, and 13 years of patent protection.
7. Apple, Inc., defendant Live Nation’s
venture partner in willful infringement since
2007, took the opportunity during the delay
caused by the Cowan defendants’ breaches of
fiduciary duty before the USPTO to plagiarize
Petitioner’s
pending
applications
and
drawings by filing its own ticketing
management patent in 2008 (2008-082491).
Apple was denied a patent for 7 years on its
application but on appeal in 2016 and citing to
five of Petitioner’s continuation in part
applications as prior art, was granted a single
near field claim. Defendant Live Nation was
a partner in Apple’s plagiarism and must be
31

\

ordered to answer for willful infringement
through the doctrine of equivalents for
engaging in bad faith. The Dept, of Justice
found that Live Nation was distributing its
own primary ticketing service to its owned and
operated venues in NYC - House of Blues,
Irving Plaza and Roseland Ballroom - since at
least February 2008 and was sanctioned by
the US Dept, of Justice for acts that infringe
Petitioner’s patents.2
8. While it is true that Petitioner had no cause
of action for infringement until the first
ticketing patent claims issued to her on
October 13, 2009 and November 1, 2011 as
found by the Federal Circuit, this finding is of
no relevance to the instant case. The inventor
is at a unique disadvantage in having to bet
that patents will issue on his invention
particularly if as here, issued patents were
unduly delayed in prosecution through
conflict of interest violations undertaken by
the common defendant practitioners before
the USPTO. Therefore, on risk that patents
may not issue, the inventor must have some
2 US v. Ticketmaster and Live Nation,
201 OWL 975408 (DCDist. Court, January
25, 2020), Competitive Impact Statement, pp.
8 line 10; Amended judgment entered
January 8, 2020 imposing sanctions of $lmil
per violation.
32

I

9

9

:♦

*

insurance and must sue under other theories
of relief that could otherwise be lost based on
prevailing statutes of limitation if they are not
timely filed in advance. However, these filings
should in no way preclude the filing of an
infringement amended complaint against the
named defendants if anticipated and delayed
patents do issue during the lawsuit, because
this will be the first opportunity for the
inventor to recover strict liability damages.
The US Supreme Court has established
precedents that must be followed for
consistency. Reedy v. Scott. 90 US 352 (1874).
j

<

I

t

9. When as here, there are conceded conflicts
of interest violations by a defendant
practitioner law firm and proper disclosures
were never made, the practitioners must be
found liable or secondarily liable for aiding
and abetting infringement or other loss of
property if, as here, a US patent is unlawfully
taken by the competing client.
Mindy’s
Cosmetics v. Dakar. 61 I F. 3d 590 (9th Cir
2010)
10. If a willful infringer engages in
jurisdictional fraud as also occurred in the
instant lawsuit by defendant Live Nation, and
a patent then does issue, the patent must be
considered
newly-discovered
evidence
33

♦

and competition impact statement].
11. This is a case of national import to the
patent industry as a whole.
12. The Federal Circuit must be ordered to
fulfill its duties to a pro se inventor designated
by patent statutes, 35 USC §§271, 286, and
because it is bequeathed with exclusive
adjudicatory powers in arising under cases by
Congress. No exceptions can be permitted.
The Federal Circuit cannot dodge its duty
when it must issue a writ against a district
court in extraordinary patent cases simply
because it finds the subject matter repugnant
or because the district court engaged in
relentless usurpation of power and corruption.

CONCLUSION
The Federal Circuit established law of the
case in its first order entered on June 23, 2020
in finding that the Second Circuit abused
discretion in not transferring Petitioner’s
previous 2017 “arising under” appeal to the
Federal Circuit in response to Petitioner’s
transfer motion under 28 USC §1631. The
Second Circuit could not establish law of the
case on arising under claims in this lawsuit by
35

legal impossibility and operation of law.
The Federal Circuit issued a provisional
deficiency notice within the order entered on
June 23, 2020 that Petitioner did not append
all the deleted amended complaints and
motions. That deficiency was immediately
corrected and the Federal Circuit dockets
were updated to add the documents. There
were three appendices emailed to the Federal
Circuit during COVID because they were too
long to make it through one transmission. The
emails were accepted and docketed by the
Federal Circuit and are available for the
Supreme Court’s de novo review. They were
not considered by the Court on rehearing.
When the Federal Circuit somewhat
inconsistently found it would still retransfer
the petition seeking a writ back to the Second
Circuit based on “law of the case”, it abused
discretion by violating its own previous order.
That the Second Circuit has no power or
jurisdiction to enter a writ in an arising under
patent case is a matter of statute and for this
reason, the Second Circuit could not establish
law of the case by adjudicating a 2017 appeal
it had now power to hear. 28 USC §§1338,
1295. In re Princo. 478 F. 3d 1345 (Fed. Cir.
2007). The Federal Circuit had no power to
36

transfer the case back and attempt to create
arising under jurisdiction in favor of the
Second Circuit that never existed.
In this case, therefore, in order to maintain
consistency with established US Supreme
Court mandates, the Federal Circuit must be
found to have abused discretion by
retransferring the case back and attempting
to dodge its mandatory statutory duty to
Petitioner to issue the writ. The SDNY
relentlessly abused its discretion and both the
SDNY and Second Circuit usurped their
powers and denied Petitioner access to their
courts in violation of the Fifth Amendment.
The Supreme Court must find that although
the SDNY’s actions are repugnant, the
Federal Circuit must vacate its transfer order,
maintain the petition and grant the writ.
If the Federal Circuit is allowed to continue to
dodge its statutory duty to Petitioner and
transfer this case back and forth, Petitioner
will continue to be denied access to protect her
patents before three federal courts in violation
of the Fifth Amendment of the United States
Constitution.

37

WHEREFORE, Petitioner prays that her
petition for writ of mandamus against the
Federal Circuit be granted in all respects.
Dated: September 30, 2020
Respectfully submitted,
/amygurvey/

;v:

//

I4/-4

US Patentee
Petitioner Pro Se
315 Highland Avenue
Upper Montclair, NJ 07043
(973) 655-0991
amygurvey@gmail.com

38

